                                              EMPLOYMENT STANDARDS
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              LONGSHORE AND HARBOR WORKERS’
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2006 and 2005




                                               This report was prepared by KPMG, LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.


                                                                                     __________________________
                                                                                      Assistant Inspector General for Audit




                                                                                 Date Issued: May 7, 2007
                                                                                 Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                         LONGSHORE AND HARBOR WORKERS’
                          COMPENSATION ACT SPECIAL FUND


                                      Table of Contents



                                                                                          Page
ACRONYMS                                                                                      ii
Management’s Discussion and Analysis
    Mission and Organizational Structure                                                     1
    Financial Highlights                                                                     1
    Performance Goals and Results                                                            2
    Internal Controls and Systems                                                            3
    Known Risks and Uncertainties                                                            4
    Limitations of the Financial Statements                                                  5
Independent Auditors’ Report                                                                 7
FINANCIAL STATEMENTS
    Balance Sheets                                                                          13
    Statements of Net Cost                                                                  14
    Statements of Changes in Net Position                                                   15
    Statements of Budgetary Resources                                                       16
    Statements of Financing                                                                 17
NOTES TO THE FINANCIAL STATEMENTS
    Note 1 – Summary of Significant Accounting Policies                                     19
    Note 2 – Funds with U.S. Treasury                                                       22
    Note 3 – Investments                                                                    22
    Note 4 – Accounts Receivable, Net                                                       23
    Note 5 – Other Liabilities                                                              24
    Note 6 – Related Party Transactions                                                     25
    Note 7 – Statement of Budgetary Resources                                               25




i                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 22-07-005-04-432
                                      Longshore and Harbor Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND


                                            Acronyms



AUP           Agreed Upon Procedures
DLHWC         Division of Longshore and Harbor Workers’ Compensation
DOL           Department of Labor
ESA           Employment Standards Administration
FY            Fiscal Year
LHWCA         Longshore and Harbor Workers’ Compensation Act
OMB           Office of Management and Budget
OWCP          Office of Workers’ Compensation Programs
U.S.C.        United States Code




U.S. Department of Labor—Office of Inspector General                                             ii
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                             September 30, 2006 and 2005


Mission and Organizational Structure

The Longshore and Harbor Workers’ Compensation Act (LHWCA) provides medical
benefits, compensation for lost-wages and rehabilitation services for job-related injuries,
diseases or death of private-sector workers in certain maritime and related employment.
Generally, benefits are paid directly from private funds by an authorized self-insured
employer or through an authorized insurance carrier. Cases meeting the requirements of
the Longshore and Harbor Workers’ Compensation statute are paid from the Fund
comprised primarily of employer contributions (assessments) and administered by the
DLHWC. In fiscal year 2006 and 2005, 4,888 and 5,740 injured workers and dependents
received compensation benefits from the Fund.

The reporting entity is the Longshore and Harbor Workers’ Compensation Act Special
Fund (Fund). Organizationally the Fund is administered by the Employment Standards
Administration (ESA), an agency within the United States Department of Labor. Within
ESA, the Division of Longshore and Harbor Workers’ Compensation (DLHWC) has direct
responsibility for administration of the Fund. The Fund supports the program mission by
providing compensation, and in certain cases, medical care payments to employees
disabled from injuries which occurred on the navigable waters of the United States, or in
adjoining areas used for loading, unloading, repairing, or building a vessel. The Fund
also extends benefits to dependents if any injury resulted in the employee’s death.

Additionally, the Longshore and Harbor Workers’ Compensation Act Section 10(h)
provides annual wage increase compensation (cost of living adjustments). Fifty percent
of this annual wage increase for pre-1972 compensation cases is paid by Federal
appropriated funds, and fifty percent is paid by the Fund through the annual assessment.
Appropriated funding for 10(h) is not reflected in the accompanying financial statements.
Appropriated funding is reflected in the Federal Employees Compensation Act’s Special
Benefit Fund.

Administrative services for operating the Fund are provided by the ESA through direct
Federal Appropriations. Appropriated funding for administrative services is not reflected
in the accompanying statements.

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled

1                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-07-005-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2006 and 2005


$138,856,619 in fiscal year 2006. This compares with assessment revenue of
$133,565,310 for fiscal year 2005. During fiscal year 2006 and 2005, substantial
recoveries were made for the Fund due to activities involving the application of Agreed
Upon Procedures (AUP) on Forms LS-513, Report of Payments (used in the calculation
of the annual assessment), and negotiation/collection of past due assessments. Equally
important, the AUP activities have uncovered common industry reporting errors and other
industry record-keeping mistakes which, when discovered, have been eliminated. The
on-going AUP program recovered $6,545,834 in fiscal year 2006 and $3,240,708 in fiscal
year 2005 for the Fund. The large increase was due to a single recovery in the early part
of the year. These recoveries have and will continue to reduce carrier assessments.

Investment income for the Fund was $2,016,112 for fiscal year 2006 compared to
$1,006,654 for fiscal year 2005. The average interest rate earned during fiscal year 2006
was 4.61% compared to 2.48% for fiscal year 2005. The Fund’s costs remained relatively
stable compared to fiscal year 2005; $133,693,455 for fiscal year 2006 compared to
$130,882,929 for fiscal year 2005.

The sources of payments into the Fund include: fines and penalties levied under the Act;
payments by employers of $5,000 for each death case where there is no survivor entitled
to the benefits; interest payments on Fund investments; and, by far the largest source,
payment of annual assessments by self-insured employers and insurance carriers.

Proceeds of the Special Fund are used for payments under: section 8(f) for second
injury claims; section 10(h) for initial and subsequent annual adjustments in
compensation for permanent total disability or related death from injuries which occurred
prior to the effective date of the 1972 LHWCA amendments; sections 39(c) and 8(g) for
the procurement of medical and vocational rehabilitation services for permanently
disabled employees and to provide a maintenance allowance to workers undergoing
rehabilitation; section 18(b) for compensation to injured workers in cases of employer
default; and section 7(e) for the cost of certain medical examinations.

Performance Goals and Results

The DLHWC supports the Department of Labor’s Strategic Goal 4 – Strengthened
Economic Protections. This goal broadly promotes the economic security of workers and
families. In particular, the DLHWC program supports Performance Goal 4B – Reduce the
Consequences of Work-Related Injuries. The Department of Labor plays a large role in


U.S. Department of Labor—Office of Inspector General                                       2
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2006 and 2005


ensuring that worker benefits are protected and that employers administer benefit
programs in an appropriate way. The Longshore program assists in meeting this
outcome goal by establishing the long term performance goal of reducing by 3% in three
years over the fiscal year 2005 baseline of 253 days the average time required to resolve
disputed issues in Longshore and Harbor Workers’ Compensation Program contested
cases. The objective of this indicator is to quickly resolve disputes, enabling earlier
benefit delivery and reducing litigation costs. The fiscal year 2006 goal was: 250 days.

Reduce by one percent over the FY 2005 baseline the average time required to resolve
disputed issues in Longshore and Harbor Worker’s Compensation Program contested
cases.

This target was achieved, with the program result of 235 days as the average number of
days to resolve disputed issues, a 6% improvement over the target of 250 days.

Longshore management has focused on improving mediation skills and timeliness of
district office intervention when disputes arose, with added emphasis on the accuracy of
dispute tracking data. In FY 2007, these efforts will continue. The FY 2007 target will be
248 days.

Internal Controls and Systems

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management and Insurance is a very small unit comprised of six employees and one
supervisor, all working in very close proximity to each other. Unethical behavior is
guarded against by carefully segregated duties, carefully assigned roles which are
password protected, and by close supervision. Much of the oversight, evaluation,
monitoring, and control and almost all of the supervisory activity is informal, done on a
face-to-face basis. Similarly, each of the district offices is in itself a small unit, operating
in the same fashion as the Branch of Financial Management and Insurance.

Management communicates all procedural, policy, and operating goals to staff by means
of weekly staff meetings, a written procedure manual, frequent e-mail communication,
and frequent individual communications regarding changes, problems and issues.




3                                           U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-07-005-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2006 and 2005


Statutes provide the formal standards where these are applicable, such as privacy
statutes, cash handling procedures and conflict of interest regulations. All codes,
statutes, and regulations governing the conduct of Federal employees apply to all
Longshore Division employees.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order
issued by a District Director or Administrative Law Judge, setting forth precisely what
payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

Monthly cash statements, monthly case management reports, quarterly review
processes, biweekly payment summaries, the SF-224 report and statement of
differences all provide current, reliable, and accurate information.

Known Risks and Uncertainties

The Longshore Special Fund is the single largest payer of indemnity payments under the
Longshore Act. It pays more than double the next largest payer of benefits. Although
there are nearly 600 authorized insurance carriers and self-insured employers, benefit
payments are concentrated among a relatively few. For example, the top 10 carriers and
self-insurers alone pay almost one-half of total industry payments excluding Special Fund
payments. If a major carrier or self-insurer fails, the remainder would face substantially
increased assessments.

The Special Fund is assessed one year at a time for current expenses. There are no
reserve funds for future Special Fund obligations. A series a high value single payment
claims, for example a large number of hearing loss claims resolved in the private sector,
could exceed the predictions used to quantify the assessment. A single, very large claim
from an uninsured, bankrupt employer could have the same effect. Temporary collection
issues could result, necessitating special, unscheduled assessments or other actions to
keep the Special Fund funded for current liabilities.

There are currently no known examples of these risks and uncertainties.




U.S. Department of Labor—Office of Inspector General                                       4
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2006 and 2005


Limitations of the Financial Statements

The following limitations are part of the financial statements:

•   The financial statements have been prepared to report the financial position and
    results of operations of the entity, pursuant to the requirements of the Chief Financial
    Officers Act of 1990, U.S.C. 3515 (b).
•   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by OMB, the statements are different from the
    financial reports used to monitor and control budgetary resources which are prepared
    from the same books and records.
•   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.




5                                          U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-005-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                       6
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                          KPMG LLP
                          2001 M Street, NW
                          Washington, DC 20036



                          Independent Auditors’ Report

Ms. Victoria Lipnic, Assistant Secretary
Employment Standards Administration
U.S. Department of Labor

We have audited the accompanying balance sheet of the U.S. Department of
Labor’s (DOL) Longshore and Harbor Workers’ Compensation Act Special Fund
(the Fund), as of September 30, 2006, and the related statements of net cost,
changes in net position, financing, and budgetary resources (hereinafter referred
to as “financial statements”) for the year then ended. The objective of our audit
was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2006 audit, we also considered the Fund’s
internal controls over financial reporting and performance measures, and tested
the Fund’s compliance with certain provisions of applicable laws and regulations
that could have a direct and material effect on these financial statements. The
accompanying financial statements of the Fund as of and for the year ended
September 30, 2005, were audited by other auditors whose report thereon, dated
July 10, 2006, expressed an unqualified opinion on those consolidated financial
statements.

SUMMARY

As stated in our opinion on the financial statements, we concluded that the
Fund’s financial statements as of and for the year ended September 30, 2006,
are presented fairly, in all material respects, in conformity with U.S. generally
accepted accounting principles.

Our consideration of internal controls over financial reporting and performance
measures would not necessarily disclose all matters in the internal control that
might be material weaknesses as defined in the Internal Control Over Financial
Reporting and Internal Controls Over Performance Measures sections of this
report. However, we noted no matters involving the internal control and its
operation that we considered to be material weaknesses as defined in this report.

The results of our tests of compliance with certain provisions of laws and
regulations disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards, issued by
the Comptroller General of the United States, and Office of Management and
Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial
Statements.
7                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-07-005-04-432

                          KPMG LLP, a U.S. limited liability partnership, is the U.S.
                          member firm of KPMG International, a Swiss cooperative.
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report




The following sections discuss our opinion on the Fund’s financial statements;
our consideration of the Fund’s internal controls over financial reporting and
performance measures; our tests of the Fund’s compliance with certain
provisions of applicable laws and regulations; and management’s and our
responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheet of the U.S. Department of
Labor Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2006, and the related statements of net cost, changes in net
position, financing, and budgetary resources for the year then ended. The
accompanying financial statements of the Fund as of and for the year ended
September 30, 2005, were audited by other auditors whose report thereon, dated
July 10, 2006, expressed an unqualified opinion on those financial statements.

In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Labor
Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2006, and its net costs, changes in net position, budgetary
resources, and reconciliation of net costs to budgetary obligations for the year
then ended, in conformity with U.S. generally accepted accounting principles.

The information in the Management Discussion and Analysis is not a required
part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles and OMB Circular No. A-136,
Financial Reporting Requirements. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit
this information and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of the internal control over financial reporting would not
necessarily disclose all matters in the internal control over financial reporting that
might be material weaknesses under standards issued by the American Institute
of Certified Public Accountants. Material weaknesses are reportable conditions in
which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by
error or fraud in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal control, misstatements due to error or
fraud may nevertheless occur and not be detected. However, we noted no


U.S. Department of Labor—Office of Inspector General                                8
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




matters involving the internal control and its operation that we considered to be
material weaknesses as defined above.

INTERNAL CONTROLS OVER PERFORMANCE MEASURES

Under OMB Bulletin No. 06-03, the definition of material weaknesses is extended
to other controls as follows. Material weaknesses are reportable conditions in
which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by
error or fraud, in amounts that would be material to a performance measure or
aggregation of related performance measures, may occur and not be detected
within a timely period by employees in the normal course of performing their
assigned functions.      Because of inherent limitations in internal control,
misstatements due to error or fraud may nevertheless occur and not be detected.

In our fiscal year 2006 audit, we noted no matters involving the design and
operation of the internal control over the existence and completeness assertions
related to key performance measures that we considered to be material
weaknesses as defined above.

COMPLIANCE AND OTHER MATTERS

The results of our tests of compliance described in the Responsibilities section of
this report disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards and OMB
Bulletin No. 06-03.

                                     * * * * *

RESPONSIBILITIES

Management’s Responsibilities. Management is responsible for the financial
statements, including:

•   Preparing the financial statements in conformity with U.S. generally accepted
    accounting principles;

•   Preparing the Management         Discussion     and   Analysis   (including   the
    performance measures);

•   Establishing and maintaining effective internal control; and

•   Complying with laws and regulations applicable to the Fund.


9                                 U.S. Department of Labor—Office of Inspector General
                                                      Report Number: 22-07-005-04-432
                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                  Financial Statements and Independent Auditors’ Report




In fulfilling this responsibility, management is required to make estimates and
judgments to assess the expected benefits and related costs of internal control
policies.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the
fiscal year 2006 financial statements of the Fund based on our audit. We
conducted our audit in accordance with auditing standards generally accepted in
the United States of America; the standards applicable to financial audit
contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and OMB Bulletin No. 06-03. Those standards and OMB
Bulletin No. 06-03 require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion.

An audit also includes:

•   Examining, on a test basis, evidence supporting the amounts and disclosures
    in the financial statements;

•   Assessing the accounting principles used and significant estimates made by
    management; and

•   Evaluating the overall financial statement presentation.

We believe that our audit provides a reasonable basis for our opinion.

In planning and performing our fiscal year 2006 audit, we considered the Fund’s
internal control over financial reporting by obtaining an understanding of the
Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on
the financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards
and OMB Bulletin No. 06-03. We did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982. The objective of our audit was not to provide an opinion on
the Fund’s internal control over financial reporting. Consequently, we do not
provide an opinion thereon.




U.S. Department of Labor—Office of Inspector General                                10
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report




As further required by OMB Bulletin No. 06-03, in our fiscal year 2006 audit, with
respect to internal control related to performance measures determined by
management to be key and reported in the Management Discussion and
Analysis section we obtained an understanding of the design of internal controls
relating to the existence and completeness assertions and determined whether
these internal controls had been placed in operation. We limited our testing to
those controls necessary to test and report on the internal control over key
performance measures in accordance with OMB Bulletin No. 06-03. However,
our procedures were not designed to provide an opinion on internal control over
reported performance measures and, accordingly, we do not provide an opinion
thereon.

As part of obtaining reasonable assurance about whether the Fund’s fiscal year
2006 financial statements are free of material misstatement, we performed tests
of the Fund’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws and regulations applicable to the Fund.
However, providing an opinion on compliance with laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion.

RESTRICTED USE

This report is intended solely for the information and use of the United States
Department of Labor’s management, Office of Inspector General, OMB, the U.S.
Government Accountability Office, and the U.S. Congress, and is not intended to
be and should not be used by anyone other than these specified parties.



March 30, 2007




11                              U.S. Department of Labor—Office of Inspector General
                                                    Report Number: 22-07-005-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                       12
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2006 and 2005


                           Assets                                    2006               2005
Intra-governmental assets:
   Funds with U.S. Treasury (note 2)                          $      154,036        13,309,829
   Investments (note 3)                                           73,146,000        60,000,000
   Accounts receivable (Note 4)                                       10,220                —
            Total intra-governmental assets                       73,310,256        73,309,829
Accounts receivable, net of allowance (note 4)                   2,431,102           1,221,523
           Total assets                                       $ 75,741,358          74,531,352
               Liabilities and Net Position
Liabilities:
  Accounts payable                                            $    2,027,520           476,567
  Accrued benefits payable                                         3,382,352         3,234,327
  Deferred revenue                                                31,229,252        36,583,028
  Other liabilities (note 5)                                       8,142,077         8,429,029
            Total liabilities                                     44,781,201        48,722,951
Net position:
  Cumulative results of operations                              30,960,157          25,808,401
            Total liabilities and net position                $ 75,741,358          74,531,352


See accompanying notes to financial statements.




13                                               U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 22-07-005-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report

                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                       Statements of Net Cost
                            Years ended September 30, 2006 and 2005


                                                                       2006                2005
Special fund net cost of operations:
  Second injury compensation, Section 8(f)                      $ 122,337,055         120,095,708
  Wage increase compensation, Section 10(h)                         1,810,952           1,976,776
  Compensation payment for self-insurer in default,
    Section 18(b)                                                   5,078,887           4,760,655
  Rehabilitation services, Section 39 (c)                           2,974,147           2,602,208
  Rehabilitation maintenance, Section 8(g)                                 —                  985
  Medical services, Section 7(e)                                        1,750                 185
  Bankrupt self-insured employers                                   1,490,664           1,446,412
            Net cost of operations                              $ 133,693,455         130,882,929


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                              14
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                          Years ended September 30, 2006 and 2005


                                                                  2006                 2005
Cumulative results of operations, beginning               $    25,808,401           24,141,933
Budgetary financing sources:
  Transfers in/out without reimbursement (note 6)               (2,027,520)          (2,022,567)
  Non-exchange revenues:
    Interest                                                    2,016,112            1,006,654
    Assessments                                               138,856,619          133,565,310
            Total non-exchange revenues                       140,872,731          134,571,964
Total financing sources                                       138,845,211          132,549,397
Net cost of operations                                      (133,693,455)         (130,882,929)
            Net position, end of period                   $   30,960,157            25,808,401


See accompanying notes to financial statements.




15                                            U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 22-07-005-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report

                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                Statements of Budgetary Resources
                            Years ended September 30, 2006 and 2005


                                                                     2006                 2005
Budgetary resources:
  Unobligated balance, brought forward                       $     69,597,787          66,856,569
  Budget authority
    Appropriations received (assessments)                        134,729,917          135,647,836
  Temporary not available pursuant to Public Law                     (20,480)              (1,122)
           Total budgetary resources                         $   204,307,224          202,503,283
Status of Budgetary Resources:
  Obligations Incurred (Note 7)
     Direct                                                  $   136,437,566          132,905,496
  Unobligated balances - available:
     Apportioned
     Other available - exempt from apportionment                  67,869,658           69,597,787
            Total status of budgetary resources              $   204,307,224          202,503,283
Change in obligated balance:
  Obligated balance, net
    Unpaid obligations, brought forward, October 1           $      3,710,894           3,155,032
  Obligations Incurred, net                                       136,437,566         132,905,496
  Less: Gross Outlays                                            (134,738,589)       (132,349,634)
  Obligated balance, net, end of period
    Unpaid obligations                                       $      5,409,871           3,710,894
Outlays:
 Gross Outlays                                               $   134,738,589          132,349,634
 Net outlays                                                 $   134,738,589          132,349,634


See accompanying notes to financial statements.




U.S. Department of Labor—Office of Inspector General                                             16
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                     Statements of Financing
                           Years ended September 30, 2006 and 2005


                                                                     2006                2005
Budgetary resources obligated:
  Obligations incurred                                        $ 136,437,566         132,905,496
Other resources:
  Transfers, net                                                  (2,027,520)         (2,022,567)
            Total resources used to finance activities          134,410,046         130,882,929
Resources used to finance items not part of the
  net cost of operations
  Resources that finance the acquisition of assets                  (232,776)                   —
            Total resources used to finance items not part
              of the net cost of operations                         (232,776)                   —
            Total resources used to finance the net cost
              of operations                                     134,177,270         130,882,929
Components not requiring or generating resources:
  Revaluation of assets and liabilities                              263,557                    —
  Benefit overpayments                                              (747,372)                   —
            Total components of net cost of operations
              that will not require or generate resources
                  in the current period                            (483,815)                 —
            Net cost of operations                            $ 133,693,455         130,882,929


See accompanying notes to financial statements.




17                                            U.S. Department of Labor—Office of Inspector General
                                                                  Report Number: 22-07-005-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report




                 THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




U.S. Department of Labor—Office of Inspector General                                       18
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2006 and 2005


(1)   Summary Of Significant Accounting Policies
      The principal accounting policies which have been followed by the Fund in
      preparing the accompanying financial statements are set forth below.
      (a)   Reporting Entity
            These financial statements present the financial position, net cost of
            operations, changes in net position, budgetary resources and financing
            activities of the Longshore and Harbor Workers’ Compensation Act Special
            Fund (Fund). The Fund is administered by the Employment Standards
            Administration (ESA) which is an agency within the United States Department
            of Labor. Within ESA, the Division of Longshore and Harbor Workers’
            Compensation has direct responsibility for administration of the Fund. The
            Fund offers compensation, and in certain cases, medical care payments to
            employees disabled from injuries which occurred on the navigable waters of
            the United States, or in adjoining areas used for loading, unloading, repairing,
            or building a vessel. The Fund also extends benefits to dependents if any
            injury resulted in the employee’s death.
            Additionally, the Longshore and Harbor Workers’ Compensation Act [Section
            10(h)] provides annual wage increase compensation (cost of living
            adjustments). Fifty percent of this annual wage increase for pre-1972
            compensation cases is paid by Federal appropriated funds and fifty percent is
            paid by the Fund through the annual assessment. Appropriated funding for
            10(h) is not reflected in the accompanying financial statements. Appropriated
            funding is reflected in the Federal Employees Compensation Act’s Special
            Benefit Fund.

      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of
            operations, changes in net position, budgetary resources and financing
            activities of the Longshore and Harbor Workers’ Compensation Act Special
            Fund (Fund), in accordance with U.S. accounting principles generally accepted
            accounting principles and the form and content requirements of OMB Circular
            A-136. These financial statements have been prepared from the books and
            records of the Fund. These financial statements are not intended to present,
            and do not present, the full cost of the Longshore and Harbor Workers’


19                                         U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-07-005-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report

                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2006 and 2005


           Compensation Act Program (Longshore Program). In addition to the Fund
           costs presented in these statements, the full cost of the Longshore Program
           would include certain direct costs of ESA in the form of salaries and expenses
           for administration of the Longshore Program and allocated costs of ESA and
           other DOL agencies incurred in support of the Longshore Program. The full
           cost of the Longshore Program is included in the Consolidated Financial
           Statements of the U.S. Department of Labor.
           U.S. generally accepted accounting principles encompass both accrual and
           budgetary transactions. Under accrual accounting, revenues are recognized
           when earned, and expenses are recognized when a liability is incurred.
           Budgetary accounting facilitates compliance with legal constraints on, and
           controls over, the use of federal funds. These financial statements are different
           from the financial reports, also prepared for the Fund pursuant to OMB
           directives, used to monitor the Fund’s use of budgetary resources.
     (c)   Funds with U.S. Treasury
           The Fund does not maintain cash in commercial bank accounts. Cash receipts
           and disbursements are processed by the U.S. Treasury. The Fund balance
           with U.S. Treasury is a trust fund that is available to pay current liabilities and
           finance authorized purchase commitments.
     (d)   Investments
           Investments in U.S. Government securities are reported at cost, net of
           unamortized premiums or discounts, which approximates market value.
           Premiums or discounts are amortized on a straight-line basis, which
           approximates the effective interest method. The Fund’s intent is to hold
           investments to maturity, unless they are needed to finance claims or otherwise
           sustain the operations of the Fund. No provision is made for unrealized gains
           or losses on these securities because, in the majority of cases, they are held to
           maturity.
     (e)   Accounts Receivable, Net of Allowance
           The amounts due as receivables are stated net of an allowance for
           uncollectible accounts. The allowance is estimated based on past experience
           in the collection of the receivables and an analysis of the outstanding
           balances. Also included as benefit overpayments receivable are Fund benefit

U.S. Department of Labor—Office of Inspector General                                       20
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                            Notes to the Financial Statements
                       Years ended September 30, 2006 and 2005


           overpayments made to individuals primarily from amended compensation
           orders and corrections of payment computations.
     (f)   Accrued Benefits Payable
           The Longshore and Harbor Workers’ Compensation Special Fund provides
           compensation and medical benefits for work related injuries to workers in
           certain maritime employment. The Fund recognizes a liability for disability
           benefits payable to the extent of unpaid benefits applicable to the current
           period.
     (g)   Deferred Revenue
           Deferred revenues represent the unearned assessment revenues as of
           September 30, the Fund’s accounting year end. The annual assessments
           cover a calendar year and, accordingly, the portion extending beyond
           September 30 has been deferred.
     (h)   Financing Sources Other Than Exchange Revenue
           Non-exchange revenues arise from the Federal government’s power to
           demand payments from and receive donations from the public. Non-exchange
           revenues are recognized by the Fund for assessments levied against the
           public and interest income from investments.
           The Fund’s primary source of revenue is annual assessments levied on
           insurance carriers and self-insured employers. Assessments are recognized as
           non-exchange revenue when due. Included in revenues are recoveries of
           amounts reassessed to carriers related to prior years. These reassessments
           primarily result from application of Agreed Upon Procedures (AUP) on reported
           carrier data. Recoveries amounted to $6,545,834 during fiscal year ended
           September 30, 2006 and $3,240,708 during fiscal year ended September 30,
           2005.
           The Fund also receives interest on Fund investments and on Federal funds in
           the possession of non-Federal entities.




21                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 22-07-005-04-432
                                      Longshore and Harbor Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report

                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                                  Notes to the Financial Statements
                          Years ended September 30, 2006 and 2005


(2)   Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2006 and 2005 consisted of cash
      deposits of $154,036 and $13,309,829, respectively. These cash deposits at
      September 30, 2006 and 2005 included $207 and $143,307, respectively, which are
      being held as security by authority of Section 32 of the Longshore and Harbor
      Workers’ Compensation Act. These funds relate to the default of self-insured
      employers, are available for payment of compensation and medical benefits to
      covered employees of the defaulted companies.
      Funds with U.S. Treasury at September 30, 2006 consisted of the following:
                                                    Entity Assets
                              Unobligated    Unobligated     Obligated
                               Balance        Balance       Balance Not    Total         Non-entity
                               Available     Unavailable Yet Disbursed Entity Assets      Assets           Total

      Special Fund        $           —               —       154,036         154,036           —          154,036



      Funds with U.S. Treasury at September 30, 2005 consisted of the following:
                                                     Entity Assets
                              Unobligated     Unobligated     Obligated
                               Balance         Balance       Balance Not    Total        Non-entity
                               Available      Unavailable Yet Disbursed Entity Assets     Assets           Total

      Special Fund        $           —               —     13,309,829      13,309,829           —       13,309,829


(3)   Investments
      Investments at September 30, 2006 and 2005 consisted of the following:
                                                                 September 30, 2006
                                              Face               Net          Market
                                              Value           Discount         Value                    Value
      Intragovernmental securities:
         Marketable                 $       73,146,000                  —        73,146,000           73,146,000




U.S. Department of Labor—Office of Inspector General                                                               22
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                                Notes to the Financial Statements
                          Years ended September 30, 2006 and 2005


                                                            September 30, 2005
                                          Face              Net          Market
                                          Value          Discount         Value           Value
      Intragovernmental securities:
         Marketable                 $   60,000,000             —        60,000,000      60,000,000


      Investments of $7,272,300 and $8,252,000 at September 30, 2006 and 2005,
      respectively, are being held as security by authority of Section 32 of the Longshore
      and Harbor Workers’ Compensation Act. These investments are available for
      payment of compensation and medical benefits to covered employees of the
      defaulted companies. Investments at September 30, 2006 and 2005 consist of
      overnight securities and short-term U.S. Treasury Bills that are stated at amortized
      cost, which approximates market. Investments at September 30, 2006 bear an
      interest rate of 5.03% compared to rates varying from 1.34% to 3.67% for 2005.
      Interest rates on securities bought and sold during fiscal year 2006 ranged from
      3.46% to 5.30% compared to 1.34% to 3.67% for fiscal year 2005.
(4)   Accounts Receivable, Net
      Accounts receivable at September 30, 2006 and 2005 consisted of the following:
                                                                        2006              2005
      Entity assets:
        Intragovernmental:
            Interest Receivable                                  $       10,220                  —
            Total Intragovernmental accounts receivable          $       10,220                  —

      Benefit overpayments                                       $    2,213,883         1,466,511
      Assessments receivable                                          1,027,573           193,903
      Less: allowance for doubtful accounts                            (810,354)         (438,891)
           Total accounts receivable from the public, net        $    2,431,102         1,221,523


      Assessments receivable represent the unpaid annual assessments from the current
      and prior years. Accounts receivable from overpayments to claimants arise primarily
      from amended compensation orders and corrections of payment computations.
      These receivables are being primarily recovered by partial and total withholding of
      benefit payments.


23                                                U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 22-07-005-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report

                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                           Years ended September 30, 2006 and 2005


      Changes in the allowance for doubtful accounts during fiscal year 2006 and fiscal
      year 2005 consisted of the following:
                                                               2006
                             Allowance        Write        Revenue                         Allowance
                           October 1, 2005    Offs        Adjustment      Bad Debt     September 30, 2006

Entity assets:
  Benefit overpayments $        (366,628)             —            —       (317,403)            (684,031)
  Assessment receivable          (72,263)             —            —        (54,060)            (126,323)

                      $         (438,891)             —            —       (371,463)            (810,354)



                                                               2005
                             Allowance        Write        Revenue                         Allowance
                           October 1, 2004    Offs        Adjustment      Bad Debt     September 30, 2005

Entity assets:
  Benefit overpayments $        (366,628)             —            —               —              (366,628)
  Assessment receivable          (72,263)             —            —               —               (72,263)

                      $         (438,891)             —            —               —              (438,891)



(5)   Other Liabilities
      Other liabilities at September 30, 2006 and 2005 consisted of the following current
      liabilities:
                                                                        2006               2005
      Other liabilities:
        Assessment overpayments by carriers                    $        869,570             33,722
        Defaulted employer liability:
          Held in investments                                          7,272,300         8,252,000
          Held in cash                                                       207           143,307
                                                                       7,272,507         8,395,307
                   Total other liabilities                     $       8,142,077         8,429,029


      Assessment overpayments are to be refunded upon request or applied to reduce
      future assessments.



U.S. Department of Labor—Office of Inspector General                                                  24
Report Number: 22-07-005-04-432
Longshore and Harbor Workers’ Compensation Act Special Fund
Financial Statements and Independent Auditors’ Report

                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                               Notes to the Financial Statements
                          Years ended September 30, 2006 and 2005


      Defaulted employer liability relates to funds and investments held by the Longshore
      Special Fund which are being held as security by authority of Section 32 of the Act.
      These funds and investments are available for compensation and medical benefits
      to covered employees of the defaulted companies.
(6)   Related Party Transactions
      The Fund reimburses the Office of Workers’ Compensation Programs (OWCP) (a
      related entity within the Employment Standards Administration) for rehabilitation
      services provided to eligible claimants and certain direct expenses associated with
      administrative support of the Fund. Amounts paid to the OWCP were $2,027,520 in
      2006 and $2,022,567 in 2005.
(7)   Statement Of Budgetary Resources
      (a)   Apportionment Categories of Obligations Incurred
                                                                   2006              2005
            Direct Obligations:
               Exempt from apportionment                    $ 136,437,566      132,905,496


      (b)   Explanation of Differences Between the Statement of Budgetary
            Resources and the Budget of the United States Government
            A reconciliation of budgetary resources, obligations incurred and outlays, as
            presented in the Statement of Budgetary Resources to amounts included in the
            Budget of the United States Government for the year ended September 30,
            2005 is shown below:
                                                                         2005
                                                           Budgetary   Obligations
            (Dollars in Millions)                          Resources    Incurred      Outlays
            Statement of Budgetary Resources          $        203           133            132

              District of Columbia Workers’ Compensation        15            11             11

            Budget of the United States Government    $        218           144            143




25                                          U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-07-005-04-432
